             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


   THE SOCIAL SECURITY ADMINISTRATION’S
GUARD SERVICE CONTRACT FOR HEADQUARTERS,
     THE NATIONAL COMPUTER CENTER,
            AND SECURITY WEST


       February 2011   A-15-10-11089




  AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      February 28, 2011                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Guard Service Contract for Headquarters, the
           National Computer Center, and Security West (A-15-10-11089)


           OBJECTIVE

           The objectives of this audit were to determine whether (1) the guard services contractor
           was complying with the contract terms and applicable regulations, and (2) Social
           Security Administration (SSA) personnel were properly monitoring the contract.

           BACKGROUND

           Office of the Inspector General Prior Guard Contract Activities

           On May 31, 2007, the Office of the Inspector General (OIG) issued a Performance
           Review of the Social Security Administration’s National Computer Center [NCC] and
           Security West Building Guard Service Contract. Paragon Systems, Incorporated,
           (Paragon) was the contractor providing guard services to SSA’s NCC and Security West
           buildings. This audit report disclosed no findings.

           During this same period, USProtect Corporation (USProtect) was providing guard
           services for SSA’s Main Complex. In March 2008, USProtect shut down after the
           Government dropped its security contracts with the company at Federal buildings
           nationwide 1 because two former executives of USProtect were convicted of tax evasion,
           bribery, and concealment of material information. 2 Paragon hired many of USProtect’s
           personnel, including several USProtect executives. Most notably, a vice president left
           USProtect (before March 2006) during the Government investigation and became the
           president of Paragon.



           1
               Castaneda, Ruben, Cash and a Cruise Traded for Contracts. Washingtonpost.com, October 4, 2007.
           2
            Swift, Aisling, Naples Man convicted in contract scandal now accused of raiding employee 401(k).
           naplesnews.com, September 12, 2010.
Page 2 - The Commissioner


Because SSA no longer had USProtect to provide guard services, SSA re-competed the
guard contract and awarded the contract to Paragon to provide guard services at SSA’s
Main Complex, 3 NCC, and Security West buildings in Woodlawn, Maryland. The
objective of this contract is to ensure these facilities are secure and adequately
protected. This guard service contract is a critical component of SSA’s overall physical
security program.

Current OIG Audit

The current audit focuses on SSA’s contract with Paragon that began on March 14,
2008 4 (Contract Number SS00-08-60003). It includes 1 base year and 9 option years,
ending March 31, 2018, for a total cost of about $242 million, if all option periods are
exercised. As of the date of this audit, the cumulative contract amount obligated was
about $71 million.

The contract requires armed guards at each post location for the times specified in the
contract. There are fixed posts and roving posts, and each post has general and
specific orders that define the basic duties to be performed. While on duty, guards must
be armed, be in uniform, and adhere to all orders for their post. The primary functions
of fixed posts include checking badges of people entering the building, inspecting bags,
remaining alert, and operating screening equipment. The primary function of roving and
mobile posts is to provide foot or mobile patrol of the interior or exterior of the site, as
defined by the post orders.

SSA offices involved in managing and directing the Agency’s physical security programs
and procuring and monitoring the guard service contracts include the Offices of
Protective Security Services (OPSS), a component of the Office of Facilities
Management, and Acquisition and Grants (OAG). OPSS directs SSA’s security
programs, develops and establishes security polices, and oversees guard contracts.
OAG is responsible for awarding and administering SSA contracts. The Contracting
Officer Technical Representative (COTR) monitors the performance of this guard
contract. These offices are responsible for ensuring the contractor complies with the
contract terms, and the services are provided efficiently and effectively. At the
beginning of our audit period, Paragon was an operating subsidiary of Tri-S Security
Corporation. In June 2010, Tri-S Security sold Paragon to Pinkerton Government
Services, Inc., a wholly owned subsidiary of Securitas AB.




3
    The contract refers to Headquarters as SSA Main Complex.
4
 The contract was modified to adjust the performance start date for the Main Complex portion of the
contract from April 1 to March 14, 2008. The contract completion date remained unchanged.
Page 3 - The Commissioner


RESULTS OF REVIEW
After reviewing the contract, we

•   met with the COTR to discuss the required contract deliverables;
•   observed guard posts and shift changes at the three sites, including issuance and
    return of firearms and equipment;
•   reviewed guard personnel files to ensure guards met training and suitability
    requirements; and
•   reviewed the Contract Guard Duty Register (Form SSA-4072) for 4 weeks.

We determined that the COTR for this contract provided sufficient oversight of the
contract. Throughout our review, she informed us of current and past contractor
performance issues. On July 9, 2010, she provided us with the Contractor Performance
Report for the period April 1, 2009 to March 31, 2010. These issues were the basis for
OPSS giving Paragon a rating of “poor” for the element of Quality of Service in the
report. In addition to the element of Quality of Service, there were three other elements
rated in the performance report: Cost Control – Not applicable, Timeliness of
Performance – Fair, and Business Relations – Fair.

Our audit work determined that Paragon was not complying with certain terms of the
contract. We found guards were not following post orders as stated in the contract, and
supervisors were not providing sufficient post inspection checks. There were excessive
errors and discrepancies on the forms used to track post hours worked and account for
firearms. These errors and discrepancies could indicate that posts were unattended.
Our observations noted several instances where guards did not check the identification
of people entering buildings; guards were gathered at posts involved in personal
conversations and not focused on post duties; roving guards were not providing foot
patrol; and guards were not following operating procedures for x-ray scanners and
hand-held wand metal detectors.

GUARD SERVICE PERFORMANCE

To determine whether the guards were performing their duties as stated in the post
orders, we observed each shift of every nonsupervisory post at least once, except for
the weekend shifts, which we observed once during the weekend. There are 73 posts
at the Main Complex, 16 posts at the NCC, and 32 posts at the Security West complex.
We conducted 221 post observations from January through August 2010. We found all
guards armed and in uniform. However, we noted 46 guards were not performing their
post duties as stated in the post orders.

Fixed-Post Guards Not Complying with Post Orders

During our observations, we noted several fixed-post guards were not performing their
post duties. Fixed-post guards are charged primarily with screening people entering the
Page 4 - The Commissioner


buildings and operating x-ray scanners and other equipment. Valid SSA identification is
required to enter the buildings at all times. We noted several instances where fixed-
post guards were not checking identification of people entering buildings, including an
exterior vehicle entry guard not checking identification of all the passengers in the
vehicle. We viewed several instances where guards were not focused on their duties,
including guards dozing off and guards loitering at posts involved in personal
conversations. During a weekend observation, we noted one guard watching a small
television under the desk while working a 24-hour post. Guards not complying with post
orders as required by the contract could compromise SSA’s physical security.

Additionally, we observed guards not following procedures for x-ray scanners and use
of hand-held wand metal detectors. Specifically, we saw two guards neglect to pause
the x-ray scanner to view the scanned items. We also viewed two male guards using
the hand-held wand metal detectors on female contractors entering the building. The
COTR told us that although it is not a written procedure, the best practice is for the
guard conducting the wanding inspection to be the same gender as the person being
inspected. In these instances, the contractor did not comply with procedures and best
practices, and SSA should remain vigilant in requiring that the contractor adhere to
accepted procedures.

Roving Posts Not Complying with Post Orders

We noted several issues with the roving guards. Specifically, we observed two mobile
patrols idling side by side in a parking lot for more than 10 minutes on 2 different days
and were unable to locate one of three mobile patrols. We were unable to locate
several roving guards. When we contacted the Altmeyer Control Center (ACC) to
ascertain the guards’ locations, the ACC could not readily give us their locations. It took
5 to 20 minutes for the ACC to locate the guards and return our calls. Their response
revealed that five of eight roving guards were providing relief breaks or were not in their
assigned area in the Main Complex. Consequently, five interior roving posts were
unattended, or open, at the same time. One of the roving guards told us her supervisor
gave her orders to remain at a fixed post until called to provide a relief break to a fixed
post. This left her assigned roving post unattended for her entire shift. Open posts
violate the contract, and our communication with the ACC provides no assurance that
contractor management was aware of who was providing breaks and when.

The contract states that Paragon must comply with Federal, State, and local regulations
regarding breaks. 5 However, there are no such regulations regarding relief breaks. The
COTR told us that past practice has been to allow roving guards to give short, 5 to
7 minute relief breaks; however, roving guards are not to provide 30-minute meal
breaks. Paragon should have enough guards scheduled to cover 30-minute breaks.
Revising the contract language to address controls over relief breaks would help
alleviate this issue.



5
    Contract SS00-08-60003, Section B-9.m.
Page 5 - The Commissioner


High Volume Telephone Use

OPSS officials also expressed concern over a high volume of telephone calls to and
from guard posts. The contract states that the contractor may use SSA’s telephone
system to conduct official business and carry out the performance of the SSA contract.
We obtained telephone logs for the period May 1 through June 11, 2010 from OPSS
and reviewed the number and duration of telephone calls. There were 227 calls lasting
over 20 minutes and 23 calls lasting 1 hour or longer. We also noted 69 calls made
overnight to closed posts. Eleven of these lasted over 30 minutes, and four were 1 hour
or longer. The COTR told us that it is unusual for closed posts to receive calls, and she
suspects that given the duration and time of the calls, they were not of a business
nature. The number and duration of calls for this time period is inappropriate
considering the primary purpose of the contract is to provide armed and unarmed guard
services to the three SSA sites.

GUARD SERVICE HOURS

Form SSA-4072, Contract Guard Duty Register, shows the hours worked by security
officers, supervisors, and project managers for each duty post. According to contract
documentation, contract employees must sign in on the Form SSA-4072 when reporting
to their post and sign out on the Form SSA-4072 when leaving their post. 6 The
contractor is required to submit the Forms SSA-4072 weekly to the COTR to verify
compliance with the contract’s hour requirements for each post. 7

Review of Form SSA-4072 Contract Guard Duty Register

We obtained the Form SSA-4072 for 4 weeks in Calendar Year 2009 to ensure the
contractor provided the work hours stated in the contract. We verified that the number
of hours worked for each post agreed with the hours required by the contract. There
were a few minor exceptions where post hours did not agree by less than 1 hour
because of errors. However, we noticed that there were numerous corrected entries on
the Forms SSA-4072 for all the weeks selected. For the weeks selected, most posts
had at least two or more corrected entries, and some posts had over nine corrections in
1 week. This raised a concern that the guards were crossing out the actual time they
left a post and writing in another time to conceal an open post. We observed a
supervisor directing a guard to change an entry on the Form SSA-4072. When we
asked why they were changing the entry, the supervisor said he had turned away a
relief guard, and the original guard was rewriting his entry. This caused concern
because both guards had signed in and out as if an actual break had occurred. When
we asked Paragon managers about these errors, they stated these were careless
errors, and they periodically retrain guards on proper sign-in procedures. We asked a
few guards about their errors and received similar responses—that the errors were
simple mistakes. However, we cannot verify the cross-outs on the Forms SSA-4072

6
    Contract SS00-08-60003, Section C-4.34.
7
    Contract SS00-08-60003, Section B-9.b and Section C-4.19.
Page 6 - The Commissioner


were simple mistakes. Since the Forms SSA-4072 are used to verify compliance with
the contract work hour requirements, it is imperative that they contain valid information.
If SSA cannot rely on the Forms SSA-4072, it should consider another method of
recording time worked by individual guards.

Guard Posts Not Properly Supervised

Also during our review of the Forms SSA-4072, we found that supervisors were not
performing regular guard post inspections. We noted large time lags between
supervisory checks. Some posts were not inspected for as long as 16 hours, and some
posts were inspected only once during an 8-hour shift or not at all. The contract
requires that contract management supervise and inspect all shifts and posts and
evidence their post inspection by signing in and out on the Form SSA-4072. 8 The
contract does not specify the number of times each post should be inspected; however,
the contractor’s Operations Manager told us that each guard post should be inspected
two times per shift. Stronger contract language indicating the number of supervisor
inspections required during a shift would ensure posts are adequately supervised.

Discrepancies on the Form SSA-3089, Firearms and Equipment Control Register

All firearms, radios, and other equipment are accounted for on the Form SSA-3089,
Firearms and Equipment Control Register. We compared the Forms SSA-3089, with
the Forms SSA-4072 for 1 day. The contract states that supervisors and guards should
make accurate receipt and return entries on the Forms SSA-3089. Based on
discussions with the COTR, guards should sign out their weapons about 5 to 7 minutes
before signing in on post to allow time to arrive at their posts. Similarly, we expected
that guards would return their weapons a few minutes after signing out of their posts.
However, our testing showed that guards were generally signing out their weapons and
returning weapons at the same time they signed in or out on their post. Since a guard
cannot be in two places at once, we believe one of the forms is inaccurate and posts
were not covered as required by the contract. We also found instances of guards
signing in on post before signing out their weapon and returning their weapon before
signing out on post. These are clear violations of the contract.

We discussed the discrepancies between the Forms SSA-4072 and SSA-3089 with
Paragon’s contract manager and site manager. They acknowledged that guards had
been making inaccurate entries and told us that Paragon was implementing a
“Guardmount” procedure, which would allow the guards time before their shift to arm,
receive instructions, report to their post, and return their weapons and equipment after
their shift. At the conclusion of our audit, we did not have documentation that Paragon
implemented this procedure. Modifying the contract to require a formal “Guardmount”
procedure before each shift would alleviate these discrepancies.




8
    Contract SS00-08-60003, Section B-4.b.
Page 7 - The Commissioner


QUALIFIED GUARD FORCE

The contract requires that the contractor retain qualified personnel and provide guard
training in firearms, cardiopulmonary resuscitation (CPR), emergency first aid
procedures, and equipment operation. All contract personnel assigned to an armed
post must qualify annually in firearms proficiency. CPR certification is required
annually, and first aid certification is required every 3 years. 9 In accordance with
industry standards, each contract guard must pass the Maryland State Police guard
certification examination and be certified in the use of Oleoresin Capsicum (OC) spray.
We selected 50 guard employee files for testing of training documentation as well as
disclosure and suitability statements. We found that all the selected guards had current
handgun permits, CPR, first aid, and OC spray certifications. They had all passed their
firearms proficiency qualification and guard certification examination. Based on our
review of the personnel and training files, we determined the contractor provided a
qualified guard force.

However, the COTR informed us that she had found guards working on post without
proper training on equipment operation. We reviewed a selection of guards working
posts with screening equipment and barrier posts. Each guard had received the
applicable training required before working these posts. One training incident described
to us by the COTR is discussed in the SSA Oversight of Contract section.

While on duty, guards must carry with them a valid security guard clearance card; a
handgun permit; and OC spray, CPR, and first aid certifications. We randomly selected
20 on-duty guards at each location to check that they were carrying valid credentials.
We found the selected guards were carrying valid credentials.

The Government requires that contractor guards receive a favorable suitability
determination every 2 years. 10 Paragon management told us that if a guard is arrested
or convicted within the 2-year period, the Maryland State or county police departments
would notify the contractor. At our request, SSA’s Center for Personnel Security and
Project Management tested a sample of 50 guards to verify that they had no convictions
since their last suitability determination. None of the selected guards had current
convictions.

FIREARMS AND EQUIPMENT

Paragon provides all firearms and equipment used for this contract. Firearms, radios,
and other equipment are stored in secure areas at each site. At all three sites, we
observed shift changes that included the issuance and return of firearms and
equipment.



9
    Contract SS00-08-60003, Section B-5 and B-6.
10
     Contract SS00-08-60003, Section C-4.7.
Page 8 - The Commissioner


Based on our observations, procedures surrounding safeguarding and providing
firearms and equipment were followed in accordance with the contract. We noted that
firearms were stored in locked safes. Keys to the safe and safe room were restricted to
authorized contract personnel. Firearms and equipment were returned to the
designated room at the end of each shift. We also observed the contracting supervisors
inspecting firearms and equipment at the beginning and end of the shifts and keeping
an inventory of all firearms and weapons.

Although weapons and ammunition were accounted for during our observations, the
COTR told us there were two recent incidents of missing weapons and ammunition.
The contractor ultimately resolved these incidents. Details are provided in the next
section.

SSA OVERSIGHT OF CONTRACT

Based on our discussions with the COTR and OPSS personnel, we determined that the
COTR provided the necessary oversight of the guard services contract. The COTR
reviews the Forms SSA-4072 weekly and routinely takes payment deductions if posts
are open or errors are not corrected within 24 hours, per the contract. She took prompt
action when contractor issues arose. She provided us examples of guard performance
issues including
•   guards were not following procedures, talking on telephones, loitering on posts, and
    engaged in personal conversations;
•   rovers were sitting or standing still, were not in their assigned areas, and were
    providing relief breaks lasting longer than 7 minutes;
•   errors and discrepancies on the Forms SSA-4072 and SSA-3089; and
•   guards operating equipment without proper training.

On July 9, 2010, the COTR provided us with the Contractor Performance Report for the
period April 1, 2009 to March 31, 2010. There were four elements rated in the
performance report: 1) Quality of Service – Poor, 2) Cost Control – Not applicable,
3) Timeliness of Performance – Fair, and 4) Business Relations – Fair. Based on this
report, Paragon has responded to certain issues by terminating and demoting guards
and supervisors. The performance issues stated above were the basis for OPSS giving
Paragon a “poor” rating for the element of Quality of Service. The following paragraphs
describe the most serious infractions relayed to us by the COTR.

•   In January 2010, a Paragon supervisor realized a firearm was missing after
    completing the inventory at the end of a shift. Both the guard and supervisor had
    documented on the Form SSA-3089 that the missing weapon had been returned.
    The guard later reported that she found the weapon in her possession and returned
    it to the site approximately 6 hours after it was reported missing. Paragon did not
    notify the COTR even though the contract states the COTR should be notified
Page 9 - The Commissioner


      immediately if there are any missing weapons. Paragon notified the OPSS Director
      the following morning. Paragon issued the guard a written reprimand and 1-day
      suspension and demoted the supervisor.

•     In July 2010, Paragon reported 4 speed loaders containing 24 rounds of ammunition
      as missing. A shift supervisor determined that there was missing ammunition while
      taking inventory at the end of a shift, but the incident was not immediately reported
      to the COTR. The ammunition was found several hours later. It is unclear whether
      Paragon took any disciplinary action.

•     The COTR told us she had found instances of guards operating barrier or screening
      equipment who had not received training on that equipment. She cited the most
      serious incident, in which a guard was not properly trained on the grab barrier he
      was operating. While the guard was operating the netted grab barrier, 11 another
      guard was crossing it and was severely injured.

CONCLUSION AND RECOMMENDATIONS
We determined that Paragon did not comply with the terms of the contract in certain
areas. Specifically, we noted instances where guards did not perform the post orders
as stated in the contract, and supervisors were not providing sufficient post inspections.
There were also excessive errors and pre-signed guard post sign-in and sign-out
sheets, and discrepancies between the Forms SSA-4072 and SSA-3089. We
determined that the COTR for this contract had provided the proper oversight of the
security guards. Because of the number of varying issues we noted on this contract, it
is imperative that SSA remain aware of contractor issues and continue its strong
oversight. SSA should examine the current contract clauses specific to performance
and modify the contract as deemed necessary. If the COTR continues to note issues
with the service provided by Paragon, it may become necessary to take corrective
action in accordance with the contract that may require that SSA re-compete this
contract before its expiration.

We recommend SSA:

1. Require that the contractor enforce strict adherence to post orders.

2. Modify the contract to control the number of roving posts left open while relief breaks
   are provided.

3. Modify the contract to require that the contractor provide supervisor post inspections
   at least two times per shift for each post.

4. Formalize a “Guardmount” procedure prior to each shift.


11
     The netted grab barrier is a vehicle barrier on an SSA loading dock.
Page 10 - The Commissioner


5. Ensure the contractor complies with proper procedures for signing in and signing out
   on the Forms SSA-4072 and SSA-3089 or develop another method for tracking the
   contract post hour requirements.

AGENCY COMMENTS AND OIG RESPONSE
In response to the draft report, the Agency agreed with three of our five
recommendations. Concerning the two recommendations the Agency disagreed with,
SSA agreed to take alternative actions. We believe the Agency’s alternative actions
address the intent of our recommendations and should resolve the issues identified
during our audit. As a result, we consider all five recommendations to be appropriately
addressed once SSA implements its proposed corrective actions.

OTHER MATTER
Subsequent to our fieldwork, it came to our attention that the contract did not contain a
limitation on hours that each guard can work. According to SSA, guards are working
consecutive shifts or extending an 8-hour shift when relief guards do not report to work.
We found a Paragon contract with another Federal agency that has specific language
addressing limitations on the number of hours a guard may work in a 24-hour period. It
states that, “No productive guard shall provide more than twelve (12) hours of service
on one or more Contracts/task orders administered by DHS FPS [Department of
Homeland Security, Federal Protective Service] in any twenty-four (24) hour period,
unless the work periods are separated by an eight (8) hour non-duty period." We
believe SSA should modify the contract to include similar language.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ACC             Altmeyer Control Center
COTR            Contracting Officer Technical Representative
CPR             Cardiopulmonary Resuscitation
Form SSA-3089   Firearms and Equipment Control Register
Form SSA-4072   Contract Guard Duty Register
NCC             National Computer Center
OAG             Office of Acquisition and Grants
OC              Oleoresin Capsicum
OIG             Office of the Inspector General
OPSS            Office of Protective Security Services
Paragon         Paragon Systems, Incorporated
SSA             Social Security Administration
USProtect       USProtect Corporation
                                                                         Appendix B

Scope and Methodology
To accomplish our objectives, we:
•   Obtained and reviewed the contract between the Social Security Administration
    (SSA) and Paragon Systems, Incorporated (Paragon).
•   Interviewed SSA and Paragon management.
•   Observed all non-supervisory armed guard posts to determine whether guards were
    complying with post orders.
•   Reviewed the Contract Guard Duty Register (Form SSA-4072) for 4 weeks to
    determine whether post hour requirements were met as stated in the contract.
•   Compared sign-in and sign-out entries on the Form SSA-4072 and the Firearms and
    Equipment Register (Form SSA-3089) for one randomly selected day to determine
    whether posts were left unattended.
•   Reviewed telephone logs for number and duration of calls for a randomly selected
    period.
•   Observed three shift changes, which included viewing the distribution and return of
    firearms and equipment and inspection of the firearm storage areas to determine
    compliance with the contract terms.
•   Reviewed Paragon employee training manual and Monthly Training Report.
•   Selected a sample of 50 contractor employee files for verification of training
    completion, valid certifications, firearm qualifications and employee certification of no
    arrests related to domestic violence.
•   Reviewed a randomly selected sample of 20 guards working barrier posts and posts
    with screening equipment to determine whether each guard had received the
    training required for these posts.
•   Selected a sample of 50 contractor employees and obtained background checks
    through the Federal Bureau of Investigations’ National Crime Information Center to
    verify there were no current arrests.

This audit did not involve the use of computerized data. Our audit fieldwork was
performed at SSA’s Headquarters from January through November 2010. We
conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:     February 16, 2011                                                      Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     Dean S. Landis/s/
          Deputy Chief of Staff

Subject   Office of the Inspector General Draft Report, “The Social Security Administration’s Guard
:         Service Contract for Headquarters, the National Computer Center, and Security West”
          (A-15-10-11089)--INFORMATION

          Thank you for the opportunity to review the subject report. Attached is our response to the
          report.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Chris Molander, Senior Advisor, Audit Management and Liaison Staff, at (410) 965-7401.

          Attachment:
          SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION'S GUARD SERVICE
CONTRACT FOR HEADQUARTERS, THE NATIONAL COMPUTER CENTER, AND
SECURITY WEST” (A-15-10-11089)


Thank you for the opportunity to review the subject report. We offer the following comments.

Recommendation 1

Require that the contractor enforce strict adherence to post orders.

Response:

We agree. We will reinforce with the contractor that it has an obligation to adhere to all sections
of post orders.

Recommendation 2

Modify the contract to control the number of roving posts left open while relief breaks are
provided.

Response:

We disagree. Section B-9-m of the contract prohibits the contractor from using roving patrols
for relief breaks, as costs to cover relief and breaks were included in the offer price. Therefore,
no modification of the contract is required. Our Office of Protective and Security Services
(OPSS) will ensure the contractor complies with the requirements in Section B-9-m of the
contract.

Recommendation 3

Modify the contract to require that the contractor provide supervisor post inspections at least two
times per shift for each post.

Response:

We disagree. We need to modify the post orders, not the contract. We will add language in post
orders requiring supervisory inspections at each post at least twice during each 8-hour period.




                                                C-2
Recommendation 4

Formalize a “Guardmount” procedure prior to each shift.

Response:

We agree. We will institute this modification and evaluate its effectiveness to determine if it is
cost beneficial or if the procedure inhibits the contractor’s ability to meet the agency’s needs.

Recommendation 5

Ensure the contractor complies with proper procedures for signing-in and signing-out on
Forms 4072 and 3089 or develop another method for tracking the contract post-hour
requirements.

Response:

We agree. We currently conduct reviews of all Forms 4072 (Guard Duty Register) before
certifying monthly invoices. We also conduct intermittent reviews of Forms 3089 (Firearms and
Equipment Control Register) for tracking and auditing purposes. As recognized in your
conclusion, we will continue our strong oversight of this contract to ensure we remain aware of
contractor issues.

We consider this recommendation closed for tracking purposes.

Page 10, “Other Matter”

In 2010, we added a clause into new solicitations for SSA guard contracts limiting the number of
work hours for contract employees. The language states:

       “No contract employee shall provide more than ten (10) hours of combined service in any
       twenty-four (24) hour period on any SSA contract, unless the work periods are separated
       by an eight (8) hour non-duty period. In emergency situations (i.e., extreme weather
       conditions when the facility is closed to employees) the employee may work in excess of
       the ten (10) hours with prior approval from the COTR.”

We will add this language into existing SSA guard contracts.




                                                C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Victoria Vetter, Director, Financial Audit Division

Acknowledgments

In addition to those named above:

      Judi Kammer, Senior Auditor
      Kali Biagioli, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-11089.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
